APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(June 25, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order
Granting Defendants’ Motion to
Dismiss and Denying Plaintiffs’
Motion for Preliminary Injunction in
the United States District Court for
the Southern District of Mississippi
Southern Division
(December 16, 2019) . . . . . . . . . . App. 24
Appendix C Final Judgment in the United States
District Court for the Southern
District of Mississippi Southern Division
(December 16, 2019) . . . . . . . . . . App. 37
Appendix D Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Fifth Circuit
(August 25, 2020) . . . . . . . . . . . . App. 39

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-60921
[Filed: June 25, 2020]
_____________________________________________
BIG TIME VAPES, INCORPORATED;
)
UNITED STATES VAPING ASSOCIATION,
)
INCORPORATED,
)
)
Plaintiffs–Appellants,
)
)
versus
)
)
FOOD & DRUG ADMINISTRATION;
)
STEPHEN M. HAHN, Commissioner of Food
)
and Drugs; ALEX M. AZAR, II, Secretary,
)
U.S. Department of Health and Human
)
Services, in his official capacity,
)
)
Defendants–Appellees. )
_____________________________________________)
_____________________
Appeal from the United States District Court
for the Southern District of Mississippi
_____________________

App. 2
Before SMITH, HIGGINSON, and ENGELHARDT,
Circuit Judges.
JERRY E. SMITH, Circuit Judge:
The Family Smoking Prevention and Tobacco
Control Act1 establishes a thorough framework for
regulating tobacco products. Four such products—
cigarettes, cigarette tobacco, roll-your-own tobacco, and
smokeless tobacco—are automatically subject to the
Act. But in section 901 of the TCA, Congress
authorized the Secretary of Health and Human
Services (“the Secretary”) to determine which other
products should be governed by the TCA’s regulatory
scheme. Big Time Vapes, Incorporated, and the United
States Vaping Association sued the Food and Drug
Administration (“FDA”), its Commissioner, and the
Secretary, asserting that Congress’s delegation to the
Secretary was unconstitutional. The district court
dismissed, and we affirm.
I.
The facts are not disputed. This appeal turns on a
purely legal question: Whether section 901’s delegation
to the Secretary violates the nondelegation doctrine.
A.
In 2009, Congress enacted the TCA, thereby
amending the Food, Drug, and Cosmetic Act, 21 U.S.C.
§ 301, et seq. Congress sought to empower the FDA to

1

Pub. L. No. 111–31, 123 Stat. 1776 (2009) (codified at 21 U.S.C.
§ 387, et seq.) (“TCA” or “the Act”).

App. 3
regulate tobacco products,2 whose use Congress found
to be “the foremost preventable cause of premature
death in America.” TCA § 2(13), 123 Stat. at 1777.
“Because past efforts to restrict advertising and
marketing of tobacco products ha[d] failed adequately
to curb tobacco use by adolescents, comprehensive
restrictions on the sale, promotion, and distribution of
such products [we]re needed.” Id. § 2(6). Accordingly,
Congress gave the FDA broad authority to address “the
public health and societal problems caused by the use
of tobacco products.” Id. § 2(7).
To advance its public-health purpose, Congress
established a detailed framework for regulating
tobacco. But that statutory scheme did not apply—at
least not immediately—to all forms of tobacco. Instead,
Congress automatically applied the TCA “to all
cigarettes, cigarette tobacco, roll-your-own tobacco, and
smokeless tobacco.”3 Section 901 provided that the TCA
also would apply “to any other tobacco products4 that
2

In so acting, Congress legislatively abrogated the result of the
watershed decision in FDA v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 126 (2000), which held that the FDA lacked the
authority to regulate tobacco as a “drug.”
3

TCA § 901, 123 Stat. at 1786 (codified at 21 U.S.C. § 387a(b)).
Each of those terms is statutorily defined. See 21 U.S.C.
§ 387(3)–(4), (15), (18).
4

Congress defined “tobacco product” as “any product made or
derived from tobacco that is intended for human consumption,
including any component, part, or accessory of a tobacco product
(except for raw materials other than tobacco used in
manufacturing a component, part, or accessory of a tobacco
product).” 21 U.S.C. § 321(rr)(1).

App. 4
the Secretary [of Health and Human Services]5 by
regulation deems to be subject to [the Act].” Id.
§ 387a(b).
The TCA imposes several requirements on “tobacco
product manufacturers.”6 They must submit to the FDA
truthful information about their products, including:
(1) “all ingredients, [i.e.,] tobacco, substances,
compounds, and additives”; (2) “[a] description of the
content, delivery, and form of nicotine in each tobacco
product”; and (3) certain information, including
manufacturer-developed documents, related to the
“health, toxicological, behavioral, or physiologic effects
of current or future tobacco products” and their
component parts. Id. § 387d(a). Manufacturers must
file annual registration statements listing all tobacco
products they make, id. § 387e(i)(1), and those lists
must be updated biannually to reflect current offerings,
id. § 387e(i)(3).
The TCA likewise prohibits manufacturers from
introducing any “new tobacco product” without
premarket authorization. Id. § 387j(a). A tobacco
product is considered “new” if it “was not commercially
marketed in the United States as of February 15,

5

The Secretary delegated that power to the FDA Commissioner,
who delegated it to several deputy and associate commissioners.
See FDA Staff Manual Guide 1410.21(1)(G)(1).
6

That term “means any person, including any repacker or
relabeler, who–(A) manufactures, fabricates, assembles, processes,
or labels a tobacco product; or (B) imports a finished tobacco
product for sale or distribution in the United States.” 21 U.S.C.
§ 387(20).

App. 5
2007.”7 A manufacturer can obtain premarket
authorization through two primary channels: (1) by
tendering a “premarket tobacco application ” (“PMTA”)
demonstrating that the product “would be appropriate
for the protection of the public health,” id. § 387j(a)(2),
(c)(2)(A); or (2) by submitting a “report” showing that
the product “is substantially equivalent to a tobacco
product commercially marketed” before February 2007,
id. § 387j(a)(2)(A)(i).8 The PMTA process is onerous,
requiring manufacturers to gather significant amounts
of information.9
Finally, the FDA can impose additional rules by
regulation, such as minimum-age restrictions,
7

Id. § 387j(a)(1)(A). The definition also encompasses “any
modification . . . of a tobacco product where the modified product
was commercially marketed in the United States after February
15, 2007.” Id. § 387j(a)(1)(B).
8

Under certain circumstances not relevant here, manufacturers
can also request an exemption from the “substantial equivalence”
requirements. See id. § 387j(a)(2)(A)(ii); see also id. § 387e(j)
(outlining the parameters for products exempt).
9

PMTAs must include (1) report(s) “concerning investigations
which have been made to show the health risks of such tobacco
product and whether such tobacco product presents less risk than
other tobacco products”; (2) a full statement of the product’s
ingredients, components, and principles of operation; (3) a
description of how the product is manufactured and prepared for
sale; (4) references to any applicable statutory standards and
information showing how those standards are met; (5) product
samples; and (6) examples of the proposed labeling for the product.
Id. § 387j(b)(1). According to the plaintiffs, curating the necessary
data to submit a PMTA can cost anywhere from about $180,000 to
more than $2 million.

App. 6
mandatory health warnings, method-of-sale limits, and
advertising constraints. See id. § 387f(d). Failing to
comply with the TCA’s or the FDA’s regulations has
serious consequences. A non-compliant manufacturer’s
product may be designated as “adulterated” or
“misbranded,” see id. §§ 387b, 387c, which could result
in, among other things, civil penalties, see id.
§ 333(f)(8)–(9), or seizure of the offending product, see
id. § 334.
B.
In May 2016, the FDA promulgated a rule that
“deem[ed] all products meeting the statutory definition
of ‘tobacco product,’ except accessories of the newly
deemed tobacco products, to be subject to FDA’s tobacco
product authorities under [the TCA].”10 That swept into
the TCA’s ambit several popular tobacco products,
including Electronic Nicotine Delivery Systems
(“ENDS”).11 The FDA maintained that regulating

10

Deeming Tobacco Products to Be Subject to the Federal Food,
Drug, and Cosmetic Act, as Amended by the Family Smoking
Prevention and Tobacco Control Act; Restrictions on the Sale and
Distribution of Tobacco Products and Required Warning
Statements for Tobacco Products (“Deeming Rule”), 81 Fed. Reg.
28,974 28,976 (May 10, 2016).

11

ENDS include “ecigarettes, e-hookah, e-cigars, vape pens,
advanced refillable personal vaporizers, and electronic pipes.” Id.
Those devices work by heating and aerosolizing a liquid
mixture–called an “e-liquid”–that includes various levels of
nicotine and sometimes flavoring. See Nicopure Labs, LLC v. FDA,
944 F.3d 267, 270 (D.C. Cir. 2019). After the liquid is aerosolized,
it is then inhaled as vapor. See id. Not all e-liquids contain
nicotine, but “[d]ata suggest that experienced ENDS users are able

App. 7
ENDS would benefit public health, because (1) those
products had the potential to effect public harm, and
(2) regulation would permit the FDA to “learn more
about that potential.” Deeming Rule, 81 Fed. Reg. at
28,983. That was especially true given that long-term
studies hadn’t yet been conducted to determine
whether ENDS products were harmful or beneficial to
public health. Id. at 28,984.
As a result of the FDA’s rule, ENDS and e-liquid
producers were “subject to all of the statutory and
regulatory requirements applicable to [tobacco]
manufacturers,” including the TCA’s reporting,
registration, and premarket authorization mandates.
Id. at 29,044. The FDA required compliance with some
TCA provisions as soon as the Deeming Rule became
effective,12 but the FDA indicated that it would not
enforce the premarket-review provisions, for products
already on the market, for several years following the
rule’s effective date.13 For any new products, however,
to achieve clinically significant nicotine levels and levels similar to
those generated by traditional cigarettes.” Deeming Rule 81 Fed.
Reg. at 29,031. Some e-liquids can also contain chemicals that are
known to pose health risks including diacetyl and acetyl propionyl,
formaldehyde, and various other aldehydes. Id. at 29,029-31.
12

For example, the FDA required newly deemed products
containing nicotine to display the following statement:
“WARNING: This product contains nicotine. Nicotine is an
addictive chemical.” Deeming Rule, 81 Fed. Reg. at 28,979.

13

See id. at 29,011–12. The length of the compliance period varied
by the type of application to be submitted. PMTAs received the
longest compliance period (36 months), followed by substantial
equivalence petitions (30 months) and exemption requests from the

App. 8
tobacco manufacturers had to obtain premarket
authorization before those products could be sold. Id. at
28,978. Because ENDS technology is relatively
young—i.e., there were very few (if any) products on
the market before February 2007—ENDS products and
e-liquids are effectively required to submit PMTAs. See
id. at 28,978–79.
C.
Big Time Vapes, a small-business manufacturer and
retailer of e-liquids, and the United States Vaping
Association, an ENDS industry trade association, sued
the FDA, contending that the TCA unconstitutionally
substantial equivalence requirements (24 months). Id. at 29,011.
Those compliance deadlines have been delayed several times. See,
e.g., FDA, EXTENSION OF CERTAIN TOBACCO PRODUCT COMPLIANCE
DEADLINES RELATED TO THE FINAL DEEMING RULE (REVISED) 9 tbl.2
(2019) (revising 2017 guidance, which extended the compliance
period for certain tobacco products until either August 2021 or
August 2022); see also 82 Fed. Reg. 37,459 (Aug. 10, 2017)
(announcing the 2017 guidance).
The FDA’s current guidance, which was issued in January
2020 and revised in April 2020, prioritizes enforcement against
(1) “[a]ny flavored, cartridge-based ENDS product,” (2) “[a]ll other
ENDS products for which the manufacturer has failed to take (or
is failing to take) adequate measures to prevent minors’ access,”
(3) “[a]ny ENDS product that is targeted to minors or whose
marketing is likely to promote use of ENDS by minors,” and
(4) “any ENDS product that is offered for sale after September 9,
2020, and for which the manufacturer has not submitted a
premarket application . . . .” FDA, ENFORCEMENT PRIORITIES FOR
ELECTRONIC NICOTINE DELIVERY SYSTEMS (ENDS) AND OTHER
DEEMED PRODUCTS ON THE MARKET WITHOUT PREMARKET
AUTHORIZATION (REVISED) 3 (2020); see also 85 Fed. Reg. 23,973
(April 30, 2020) (announcing the guidance).

App. 9
delegated to the Secretary the power to deem tobacco
products subject to the Act’s mandates. The plaintiffs
requested, inter alia, (1) a declaration that section 901
violates the nondelegation doctrine and (2) an
injunction preventing the FDA from enforcing the TCA
against them.
Shortly after filing suit—and in response to a
forthcoming change in federal enforcement
strategy—the plaintiffs moved for a preliminary
injunction enjoining the FDA “from exercising any
authority over any ‘tobacco products’ deemed to be
subject to the TCA . . . .” The FDA opposed the
plaintiffs’ motion and separately moved to dismiss
under Rule 12(b)(6). The plaintiffs countered the FDA’s
motion by asserting that they were entitled to
reasonable discovery.
The district court found no nondelegation violation
and dismissed the suit. The court determined that
Congress had articulated a sufficiently intelligible
principle—specifically, “a desire to protect the public
health and to prevent, to the extent possible,
underaged persons from having access to tobacco
products”—for the delegation to pass constitutional
muster. Moreover, the court concluded that the FDA’s
power was adequately constrained, because
(1) “Congress . . . restricted the FDA’s discretion with
a controlling definition of ‘tobacco product,’” and
(2) “Congress, itself, designated certain tobacco
products as governed by the TCA and presented
detailed policies behind its enactment of the TCA.” The
court naturally denied a preliminary injunction. The
plaintiffs appeal.

App. 10
II.
We review Rule 12(b)(6) dismissals de novo. In re
IntraMTA Switched Access Charges Litig., No.
18-10768, 2020 U.S. App. LEXIS 16844, at *58 (5th
Cir. May 27, 2020). Whether a statute violates the
nondelegation doctrine is a legal question we review de
novo. See United States v. Johnson, 632 F.3d 912, 917
(5th Cir. 2011).
A.
“All legislative Powers herein granted shall be
vested in a Congress of the United States.” U.S. CONST.
art. I, § 1. “Accompanying that assignment of power to
Congress is a bar on its further delegation.” Gundy v.
United States, 139 S. Ct. 2116, 2123 (2019) (plurality).
“Th[at] nondelegation doctrine is rooted in the principle
of separation of powers that underlies our tripartite
system of Government.” Mistretta v. United States, 488
U.S. 361, 371 (1989). “[T]he lawmaking function
belongs to Congress,” Loving v. United States, 517 U.S.
748, 758 (1996), and Congress “may not
constitutionally delegate [that] power to another”
constitutional principal, Touby v. United States, 500
U.S. 160, 165 (1991).
But that seemingly inflexible constitutional text has
long been recognized to be somewhat pliable.14 “The
14

See Loving, 517 U.S. at 758 (“Th[e] [nondelegation] principle
does not mean, however, that only Congress can make a rule of
prospective force. To burden Congress with all federal rulemaking
would divert that branch from more pressing issues, and defeat the
Framers’ design of a workable National Government.”); Mistretta,
488 U.S. at 372 (“[O]ur jurisprudence has been driven by a

App. 11
Constitution has never been regarded as denying to the
Congress the necessary resources of flexibility and
practicality to perform its function.” Yakus v. United
States, 321 U.S. 414, 425 (1944) (ellipsis omitted).
Delegations are constitutional so long as Congress
“lay[s] down by legislative act an intelligible principle
to which the person or body authorized [to exercise the
authority] is directed to conform.” J.W. Hampton, Jr.,
& Co. v. United States, 276 U.S. 394, 409 (1928). It is
“constitutionally sufficient if Congress clearly
delineates the general policy, the public agency which
is to apply it, and the boundaries of th[e] delegated
authority.” Am. Power & Light Co. v. SEC, 329 U.S. 90,
105 (1946).
“Those standards . . . are not demanding.”15 Even
practical understanding that in our increasingly complex society,
replete with ever changing and more technical problems, Congress
simply cannot do its job absent an ability to delegate power under
broad general directives.”).
15

Gundy, 139 S. Ct. at 2129 (plurality). Some have suggested that
the Court’s intelligible-principle standard is really no hurdle at all.
See, e.g., id. at 2140 (Gorsuch, J., dissenting) (“[The intelligibleprinciple standard] has been abused to permit delegations of
legislative power that on any other conceivable account should be
held unconstitutional. Indeed, where some have claimed to see
‘intelligible principles’ many less discerning readers have been able
to only find gibberish.” (cleaned up)); Gary Lawson, Delegation and
Orginial Meaning, 88 VA. L. REV. 327, 329 (2002) (“[I]n
Mistretta . . . the Court aptly summarized more than half a century
of case law by unanimously declaring the nondelegation doctrine
to be effectively a dead letter.”); David Schoenbrod, The Delegation
Doctrine: Could the Court Give It Substance?, 83 MICH. L. REV.
1223, 1231 (1985) (“The [intelligible-principle] test has become so
ephemeral and elastic as to lose its meaning.”).

App. 12
though Congress has delegated power to the President
“[f]rom the beginning of the government,”16 the Court
did not find a delegation of legislative power to be
unlawful until 1935, when the Court declared two to be
unconstitutional. See Pan. Ref. Co. v. Ryan, 293 U.S.
388, 433 (1935); A.L.A. Schechter Poultry Corp. v.
United States, 295 U.S. 495, 542 (1935). But the Court
has not done so in the nearly nine decades since17 and,
instead, has long defended “Congress’[s] ability to
delegate power under broad standards.”18 In fact, the
16

United States v. Grimaud, 220 U.S. 506, 517 (1911); see also
Wayman v. Southard, 23 U.S. (10 Wheat.) 1, 41–47 (1825)
(upholding a provision of the Process and Compensation Act of
1792 that permitted federal courts to make rules altering the
“forms and modes of proceeding” that Congress had adopted);
Cargo of the Brig Aurora v. United States, 11 U.S. (7 Cranch) 382,
383 (1813) (observing that the Non-Intercourse Act of 1809
authorized the president, by proclamation, to revoke or modify
portions of the Act if he found certain facts).

17

We also have uniformly upheld Congress’s delegations. See,
e.g., United States v. Jones, 132 F.3d 232, 239 (5th Cir. 1998)
(upholding delegation of authority to the DOJ to “define
nonstatutory aggravating factors” to determine which offenders
were “death-eligible” under the Federal Death Penalty Act); United
States v. Mirza, 454 F. App’x 249 256 (5th Cir. 2011) (per curiam)
(upholding International Emergency Economic Powers Act’s
delegation, which authorizes the President to declare a national
emergency and limit certain types of economic activity related to
that threat).
18

Mistretta, 488 U.S. at 373. For example, the Court has blessed
delegations that authorize regulation in the “public interest” or to
“protect the public health.” See, e.g., Whitman v. Am. Trucking
Ass’ns, Inc., 531 U.S. 457, 472 (2001) (upholding delegation to EPA
to regulate “ambient air quality standards the attainment and
maintenance of which in the judgment of the Administrator . . . are

App. 13
Court has “almost never felt qualified to second-guess
Congress regarding the permissible degree of policy
judgment that can be left to those executing or
applying the law.” Am. Trucking, 531 U.S. at 474–75.
That does not mean, however, that we must
rubber-stamp all delegations of legislative power.
Indeed, “[w]e ought not to shy away from our judicial
duty to invalidate unconstitutional delegations”; “[i]f
we are ever to reshoulder the burden of ensuring that
Congress itself make the critical policy decisions, these
are surely the cases in which to do it.”19 In that spirit,

requisite to protect the public health”); Nat’l Broad. Co. v. United
States, 319 U.S. 190, 225-26 (1943) (upholding delegation to FCC
to regulate broadcast licensing in the “public interest”); N.Y. Cent.
Sec. Corp. v. United States, 287 U.S. 12, 24-25 (1932) (upholding
delegation of authority to Interstate Commerce Commission to
approve railroad consolidations that are in the “public interest”).
Moreover, the Court has also approved of delegations that spoke
in terms of fairness and equity. See, e.g., Am. Power, 329 U.S. at
104 (upholding delegation to SEC to ensure that holding
companies didn’t “unduly or unnecessarily complicate” corporate
structures or “unfairly or inequitably distribute voting power
among security holders”); Yakus, 321 U.S. at 426-27 (upholding
delegation to agency to set commodity prices that are “fair and
equitable” and that “tend to promote the purposes of the Act”); cf.
Lichter v. United States, 334 U.S. 742, 785-86 (1948) (upholding
delegation of to Secretary of War to recover “excessive profits” from
private businesses in times of crisis).
19

Indus. Union Dep’t, AFL-CIO v. Am. Petroleum Inst., 448 U.S.
607, 686-87 (1980) (Rehnquist, J., concurring in the judgment).

App. 14
several Justices recently expressed interest in
reexamining the nondelegation doctrine.20
B.
“[A] nondelegation inquiry always begins (and often
almost ends) with statutory interpretation,” because we
need “to figure out what task [the statute] delegates
and what instructions it provides.” Gundy, 139 S. Ct. at
2123 (plurality). Our task should not be limited to the
text alone—when evaluating whether Congress laid
down a sufficiently intelligible principle, we’re meant
also to consider “the purpose of the [TCA], its factual
background[,] and the statutory context.”21 “That
non-blinkered brand of interpretation” generally bodes
well for delegations. Id. at 2126.

20

See Gundy, 139 S. Ct. at 2131 (Alito, J., concurring in the
judgment) (“If a majority of this Court were willing to reconsider
the approach we have taken for the past 84 years, I would support
that effort.”); id. (Gorsuch, J., dissenting) (indicating that the court
shouldn’t wait to reconsider the nondelegation doctrine, whose
abandonment is premised on “an understanding of the
Constitution at war with its text and history”); Paul v. United
States, 140 S. Ct. 342 (2019) (Kavanaugh, J., respecting the denial
of certiorari) (“Justice GORSUCH’s scholarly analysis of the
Constitution’s nondelegation doctrine in his Gundy dissent may
warrant further consideration in future cases.”).
21

Am. Power, 329 U.S. at 104; accord United States v. Womack,
654 F.2d 1034, 1037 (5th Cir. Unit B Aug. 1981) (“The standards
of the statute are not to tested in isolation but must derive
meaningful content from the purpose of the statute and its factual
background and the statutory context in which the standards
appear.”).

App. 15
In the TCA, Congress delegated to the Secretary the
power to “deem” which tobacco products should be
subject to the Act’s mandates. See 21 U.S.C. § 387a(b).
But the plaintiffs assert that Congress didn’t provide
“any parameters or guidance whatsoever” to guide the
Secretary’s exercise of that discretion. That unbounded
delegation of “deeming” authority violates the nondelegation doctrine, the plaintiffs maintain, as did the
limitless delegation in Panama Refining. And because
the TCA laid down no principle— notwithstanding the
Secretary’s authority’s being limited to “tobacco
products” or the statutory framework established for
enumerated tobacco products—the broad delegations
that the Court has approved in the past are inapposite.
We disagree. Recall that it is“constitutionally
sufficient if Congress [(1)] clearly delineates [its]
general policy, [(2)] the public agency which is to apply
it, and [(3)] the boundaries of th[at] delegated
authority.” Mistretta, 488 U.S. at 372–73 (quoting Am.
Power, 329 U.S. at 105). The second factor isn’t at
issue; the TCA’s text facially designates the Secretary.
And on the other two, the TCA’s delegation, despite the
plaintiffs’ suggestions to the contrary, falls comfortably
within the outer boundaries demarcated by the
Supreme Court.22
22

The plaintiffs raise two additional contentions: The district court
erred (1) by dismissing their complaint before reasonable discovery
and (2) by denying them a preliminary injunction. Neither is
meritorious. The plaintiffs identify no authority that even
suggests, much less requires, that the district court had to afford
them discovery, especially when additional facts wouldn’t have
helped them overcome a distinctly legal barrier. And, because the
plaintiffs haven’t stated a claim, they cannot show that the district

App. 16
1.
Congress undeniably delineated its general policy in
the TCA. The plaintiffs improperly discount other
materials that we must consider, namely the TCA’s
purpose and the relevant factual background.23 Both
factors support upholding section 901’s delegation.
Start with statutory purpose. The plaintiffs suggest
that the TCA’s purposes are “various and diverse,” so
much so that they “are in actual tension with one
another.” To come to that conclusion, the plaintiffs
essentially ignore Section 3 of the TCA, which is aptly
labeled “PURPOSE.”24
In that section, Congress stated that the TCA was
meant “to ensure that the [FDA] has the authority to
address issues of particular concern to public health
officials, especially the use of tobacco by young people
and dependence on tobacco.” TCA, § 3(2), 123 Stat. at
1781. Another purpose was “to provide new and flexible
court abused its discretion in denying them a preliminary
injunction. See Winter v. NRDC, 555 U.S. 7, 20 (2008) (requiring
the plaintiffs to establish, among other things, they are they’re
“likely to succeed on the merits”).
23

See, e.g., Thomas v. Union Carbide Agric. Prod. Co., 473 U.S.
568, 593 (1985); Am. Power, 329 U.S. at 104; Womack, 654 F.2d at
1037.

24

Section 3 is part of the positive law that ran the gauntlet of
bicameralism and presentment. See TCA, § 3, 123 Stat. at
1781–82. That’s a far cry from “the sort of unenacted legislative
history that often is neither truly legislative . . . nor truly
historical . . . .” BNSF Ry. v. Loos, 139 S. Ct. 893, 906 (2019)
(Gorsuch, J., dissenting).

App. 17
enforcement authority to ensure that there is effective
over-sight of the tobacco industry’s efforts to develop,
introduce, and promote less harmful tobacco products.”
Id. § 3(4), 123 Stat. at 1782. And still two more
purposes were “to impose appropriate regulatory
controls on the tobacco industry” and “to promote
cessation to reduce disease risk and the social costs
associated with tobacco-related diseases.” Id. § 3(8)–
(9). Obviously, the TCA’s purpose sounds in
(1) protecting public health and (2) preventing young
people from accessing (and becoming addicted to)
tobacco products.
That purpose was informed by Congress’s extensive
fact-finding. See id. § 2, 123 Stat. at 1776–81. Congress
concluded that, for several reasons, tobacco products
posed a significant risk to children: (1) “[T]obacco
products are inherently dangerous and cause cancer,
heart disease, and other serious adverse health effects”;
(2) “[n]icotine is an addictive drug”; (3) “[v]irtually all
new users of tobacco products are under the minimum
legal age to purchase such products”; and (4) “[t]obacco
advertising and marketing contribute significantly to
the use of nicotine-containing tobacco products by
adolescents.” Id. § 2(1)–(5), 123 Stat. at 1777. And
Congress meant for the FDA to attack those problems
comprehensively,25 that is, in an “all-encompassing or
25

See, eg., TCA, § 2(6), 123 Stat. at 1777 (“Because past efforts to
restrict advertising and marketing of tobacco products have failed
adequately to curb tobacco use by adolescents, comprehensive
restrictions on the sale, promotion, and distribution of such
products are needed.” (emphasis added)); id. § 2(7) (“Federal and
State governments have lacked the legal and regulatory authority
and resources they need to address comprehensively the public

App. 18
sweeping” fashion. Gundy, 139 S. Ct. at 2127
(plurality). Those findings when coupled with
Congress’s stated purposes in legislating, undoubtedly
identify a “general policy” for the Secretary to pursue.
2.
Likewise, Congress plainly limited the authority
that it delegated. Far from giving the Secretary carte
blanche, the TCA cabined its delegation in two
important ways.
First, and critically, Congress enacted a controlling
definition of “tobacco product,” which necessarily
restricts the Secretary’s power to only products
meeting that definition. See 21 U.S.C. § 321(rr)(1).
Congress also identified four products—“cigarettes,
cigarette tobacco, roll-your-own tobacco, and smokeless
tobacco”—that were immediately subject to the TCA’s
mandates. Id. § 387a(b). Together, those features
health and societal problems caused by the use of tobacco
products.” (emphasis added)); id. § 2(25), 123 Stat. at 1778
(“Comprehensive advertising restrictions will have a positive effect
on the smoking rates of young people.” (emphasis added)); id.
§ 2(27) (“International experience shows that advertising
regulations that are stringent and comprehensive have a greater
impact on overall tobacco use and young people’s use than weaker
or less comprehensive ones.” (emphasis added)); id. § 2(31), 123
Stat. at 1779 (“An overwhelming majority of Americans who use
tobacco products begin using such products while they are minors
and become addicted to the nicotine in those products before
reaching the age of 18. Tobacco advertising and promotion play a
crucial role in the decision of these minors to being using tobacco
products. Less restrictive and less comprehensive approaches have
not and will not be effective in reducing the problems addressed by
such regulations.” (emphasis added)).

App. 19
“ha[ve] the effect of constricting the [Secretary’s]
discretion to a narrow and defined category.” United
States v. Ambert, 561 F.3d 1202, 1214 (11th Cir. 2009)
(cited favorably by United States v. Whaley, 577 F.3d
254, 264 (5th Cir. 2009)). We recognized as much in the
context of a federal statute criminalizing the
production of “explosives.”26
And second, Congress restricted the Secretary’s
discretion by making many of the key regulatory
decisions itself. See Ambert, 561 F.3d at 1214. Among
myriad other things, the TCA requires tobacco
manufacturers to submit comprehensive data about
their products’ ingredients (including nicotine) and
health effects. See 21 U.S.C. § 387d(a). The Act also
requires manufacturers to file annual registration
statements listing their products and to update those
lists biannually. See id. § 387e(i)(1); id. § 387e(i)(3).
And finally, the TCA prohibits manufacturers from
introducing new tobacco products without premarket
authorization, and it details the steps manufacturers
must take to obtain approval. See id. § 387j(a). As those
26

See Womack, 654 F.2d at 1038 (rejecting assertion that federal
statute regulating explosives lacked “adequate standards,” given
that the statute “carefully define[d] the term ‘explosives’ . . . and
an illustrative list of subject explosives [wa]s provided”). The
plaintiffs spill a lot of ink to distinguish Womack’s facts, likely
because the district court found Womack to be analogous to this
case. The plaintiffs assert that the statute in Womack essentially
conferred no discretion; it required the Treasury Secretary to list
all “explosives” that met the statutory definition. We needn’t
determine whether those factual differences are of any moment.
Even assuming that Womack is factually distinct and therefore
does not control, it doesn’t follow that the delegation at issue here
must be unconstitutional.

App. 20
substantive provisions show, Congress painted much of
the regulatory canvas, leaving the finishing touches to
the FDA. The Court has held, time after time, that
that’s enough to clear the Constitution’s low hurdles.
See, e.g., Mistretta, 488 U.S. at 372–74 (collecting
cases).
3.
The relevant caselaw drives those conclusions home.
It bears repeating: The Court has found only two
delegations to be unconstitutional. Ever. And none in
more than eighty years. See Pan. Ref., 293 U.S. at 433;
Schechter, 295 U.S. at 542. Considering those decisions,
it’s evident that we confront nothing similar here.
Instead, the TCA’s commission to the Secretary mirrors
the delegation to the Attorney General of the Sex
Offender Registration and Notification Act (“SORNA”),
which the Court approved just last year. See Gundy,
139 S. Ct. at 2121 (plurality). In Panama Refining and
Schechter, the Court invalidated two of the National
Industrial Recovery Act’s delegations to the President.
In Panama Refining, 293 U.S. at 406, the Court
considered Section 9(c), which authorized the President
“to prohibit the transportation in interstate and foreign
commerce” of certain petroleum products. And
Schechter, 295 U.S. at 521–22, evaluated Section 3,
which empowered “the President to approve ‘codes of
fair competition’” that were submitted by “one or more
trade or industrial associations or groups.” NIRA
outlined exceedingly broad legislative purposes,
including (1) “remov[ing] obstructions to the free flow
of interstate and foreign commerce,” Pan. Ref., 293 U.S.
at 418, and (2) disfavoring “monopolies [and]

App. 21
monopolistic practices,” Schechter, 295 U.S. at 523. But
in both cases, Congress erected no guide rails to limit
how the President should exercise his authority.27
The Court found both delegations to be
unconstitutional. See Pan. Ref., 293 U.S. at 433;
Schechter, 295 U.S. at 542. That’s not surprising, given
that NIRA placed almost no limits on how the
President—and in Schechter’s case, private
groups—could wield their delegated authority. Section
9(c) “provided literally no guidance for the exercise of
discretion,” and Section 3 “conferred authority to
regulate the entire economy on the basis of no more
precise a standard than stimulating the economy by
assuring ‘fair competition.’” Am. Trucking, 531 U.S. at
474.
By contrast, the TCA’s delegation to the Secretary
is circumscribed, and Congress provided far more
signposts to direct the exercise of the authority it
delegated. The TCA’s targeted statements of
purpose and voluminous fact-finding make that
incontrovertible.
Instead, the TCA’s deputizing of the Secretary
mirrors SORNA’s delegation to the Attorney General.
27

See Pan. Ref., 293 U.S. at 417!418 (observing that Congress
“la[id] down no policy of limitation” in Section 9(c), and its general
policy statement “contain[ed] nothing as to the circumstances or
conditions in which transportation of petroleum or petroleum
products should be prohibited”); Schechter, 295 U.S. at 541 (noting
that the Section 3 was “without precedent,” because it “sets up no
standards” to guide the President’s exercise of his authority
outside of NIRA’s “general aims of rehabilitation, correction, and
expansion” of the economy).

App. 22
In enacting SORNA, Congress sought “to combat sex
crimes and crimes against children” by creating “‘more
uniform and effective’ . . . sex-offender registration
systems.” Gundy, 139 S. Ct. at 2121 (plurality)
(quotation marks omitted). For sex offenders convicted
after SORNA, the statute provided a detailed
framework outlining their obligations to register. Id.
at 2122. SORNA didn’t specify, however, how it would
apply to pre-Act offenders, leaving that decision up to
the Attorney General:
The Attorney General shall have the authority
to specify the applicability of the requirements of
this subchapter to sex offenders convicted before
the enactment of this chapter . . . and to
prescribe rules for the registration of any such
sex offenders . . . .
34 U.S.C. § 20913(d). But beyond the text of that
provision, the plurality observed that SORNA’s
purposes,28 statutory context, and legislative history all
pointed in one direction: Congress meant for SORNA to
apply to pre-Act offenders as soon as feasible. Gundy,
139 S. Ct. at 2126–29 (plurality). Given that backdrop,
the plurality had little trouble determining that
SORNA’s delegation was constitutionally permissible.
See id. at 2129–30.
In all material respects the TCA’s statutory scheme
parallels SORNA’s. Both SORNA and the TCA
established detailed regulatory frameworks that
28

Like the TCA’s, SORNA’s purposes were enacted as part of the
positive law. See Pub. L. No. 109-248, § 102, 120 Stat. 587, 590-91
(2006) (codified at 34 U.S.C. § 20901).

App. 23
automatically applied to certain classes of persons or
products. In both statutes, Congress delegated to an
executive branch official the power to determine
whether those requirements applied to other
non-covered classes. And in both instances, Congress
outlined specific purposes to inform the executive
officer’s exercise of the discretion so afforded. Although
a less-than-full-strength Court fractured in Gundy, five
Justices elected to affirm SORNA’s delegation.29 Those
votes compel our affirmance here.
* * * * *
The Court might well decide—perhaps soon—to
reexamine or revive the nondelegation doctrine. But
“[w]e are not supposed to . . . read tea leaves to predict
where it might end up.” United States v. Mecham, 950
F.3d 257, 265 (5th Cir. 2020), cert. denied, 2020 WL
3405899 (U.S. June 22, 2020) (No. 19-7865). The
judgment of dismissal is therefore AFFIRMED.

29

See Grundy, 139 S. Ct. at 2121 (plurality); see also id. at 2131
(Alito, j., concurring in the judgment) (“Because I cannot say that
the statute lacks a . . . standard that is adequate under the
approach this Court has taken for many years, I vote to affirm.”).

App. 24

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
MISSISSIPPI
SOUTHERN DIVISION
CAUSE NO. 1:19cv531-LG-JCG
[Filed: December 16, 2019]
_____________________________________________
BIG TIME VAPES, INC. and
)
UNITED STATES VAPING
)
ASSOCIATION, INC.
)
)
PLAINTIFFS
)
)
v.
)
)
FOOD AND DRUG
)
ADMINISTRATION, et al.
)
)
DEFENDANTS
)
_____________________________________________)
MEMORANDUM OPINION AND ORDER
GRANTING DEFENDANTS’ MOTION TO
DISMISS AND DENYING
PLAINTIFFS’ MOTION FOR PRELIMINARY
INJUNCTION
BEFORE THE COURT are the [15] Motion for
Preliminary Injunction filed by the plaintiffs Big Time
Vapes, Inc., and United States Vaping Association,

App. 25
Inc., and [24] Motion to Dismiss filed by the defendants
Food and Drug Administration, Admiral Brett P.
Giroir, M.D. in his official capacity as Acting
Commissioner of Food and Drug Administration, and
Alex M. Azar, II, in his official capacity as Secretary of
Health and Human Services. The parties have fully
briefed both Motions. The plaintiffs raise a
constitutional delegation challenge to part of the
Family Smoking Prevention and Tobacco Control Act
(“TCA”), and the defendants counter that the plaintiffs
have failed to state a plausible claim for relief. After
reviewing the submissions of the parties, the record in
this matter, and the applicable law, the Court finds
that the defendants’ Motion to Dismiss should be
granted, and the plaintiffs’ Motion for Preliminary
Injunction should be denied.
BACKGROUND
In 2009, Congress amended the Federal Food, Drug,
and Cosmetic Act to include the TCA, which vests the
FDA with regulatory authority over the design,
production, marketing, and advertising of tobacco
products. Congress listed the following purposes of the
Act:
(1) to provide authority to the Food and Drug
Administration to regulate tobacco products
under the Federal Food, Drug, and Cosmetic
Act . . . by recognizing it as the primary Federal
regulatory authority with respect to the
manufacture, marketing, and distribution of
tobacco products as provided for in this
division . . . ;
(2) to ensure that the Food and Drug

App. 26
Administration has the authority to address
issues of particular concern to public health
officials, especially the use of tobacco by young
people and dependence on tobacco;
(3) to authorize the Food and Drug
Administration to set national standards
controlling the manufacture of tobacco products
and the identity, public disclosure, and amount
of ingredients used in such products;
(4) to provide new and flexible enforcement
authority to ensure that there is effective
oversight of the tobacco industry’s efforts to
develop, introduce, and promote less harmful
tobacco products;
(5) to vest the Food and Drug Administration
with the authority to regulate the levels of tar,
nicotine, and other harmful components of
tobacco products;
(6) in order to ensure that consumers are better
informed, to require tobacco product
manufacturers to disclose research which has
not previously been made available, as well as
research generated in the future, relating to the
health and dependency effects or safety of
tobacco products;
(7) to continue to permit the sale of tobacco
products to adults in conjunction with measures
to ensure that they are not sold or accessible to
underage purchasers;
(8) to impose appropriate regulatory controls on
the tobacco industry;
(9) to promote cessation to reduce disease risk
and the social costs associated with
tobacco-related diseases; and

App. 27
(10) to strengthen legislation against illicit trade
in tobacco products.
Pub. L. No. 111-31, 123 Stat. 1778 (2009). Congress
clarified, however, that the TCA is not intended to
affect the growing, cultivation, or curing of raw tobacco.
Id.
Congress specified that the TCA “shall apply to all
cigarettes, cigarette tobacco, roll-your-own tobacco, and
smokeless tobacco and to any other tobacco products
that the Secretary by regulation deems to be subject to
this subchapter.” 21 U.S.C. § 387a(b).1 Congress defines
“tobacco product” as “any product made or derived from
tobacco that is intended for human consumption,
including any component, part, or accessory of a
tobacco product (except for raw materials other than
tobacco used in manufacturing a component, part, or
accessory of a tobacco product).” 21 U.S.C. § 321(rr)(1).
On May 10, 2016, the FDA issued a final rule
deeming electronic nicotine delivery systems (“ENDS”)
to be subject to the Federal Food, Drug, and Cosmetic
Act.2 Deeming Tobacco Products to be Subject to the
1

The Secretary referred to in the statute is the Secretary of Health
and Human Services. 21 U.S.C. § 321(d). The Secretary
redelegated his authority to the FDA Commissioner, who in turn
redelegated his authority to the Associate Commissioner for Policy.
FDA Staff Manual Guide 1410.10, 1410.21.
2

ENDS include e-cigarettes, e-cigars, e-hookah, vape pens,
personal vaporizers, and electronic pipes. Deeming Tobacco
Products to be Subject to the Federal Food, Drug, and Cosmetic
Act, 81 Fed. Reg. 28,973-01, 29,028 (May 10, 2016) (to be codified
at 21 C.F.R. pts. 1100, 1140, and 1143).

App. 28
Federal Food, Drug, and Cosmetic Act, 81 Fed. Reg.
28,973-01 (May 10, 2016) (to be codified at 21 C.F.R.
pts. 1100, 1140, and 1143). This deeming rule clarified
that “establishments that mix or prepare e-liquids or
create of modify aerosolizing apparatus for direct sale
to consumers are tobacco product manufacturers under
the definition set forth in the FD&C Act and,
accordingly, are subject to the same legal requirements
that apply to other tobacco product manufacturers.” Id.
at 28,979. As a result, these establishments must
obtain premarket approval of all products not
commercially marketed in the United States as of
February 15, 2007. 21 U.S.C. § 387j. Any products not
preapproved by the FDA are banned. See 21 U.S.C.
§ 387b; 21 U.S.C. § 387c.
The deeming rule went into effect on August 8,
2016, but the FDA provided time periods during which
the FDA did not intend to enforce compliance with
premarket review requirements. Id. at 29,006. In
August 2017, the FDA issued Guidance for Industry:
Extension of Certain Tobacco Product Compliance
Deadlines Related to the Final Deeming Rule (Aug.
2017), which is available at https://www.fda.gov/media
/105346 /download, stating that it did not intend to
enforce the Act’s premarket review provisions “as a
matter of enforcement discretion” until August 2022.
2017 Guidance at 3-4.
The American Academy of Pediatrics and others
filed a lawsuit against the FDA in the United States
District Court for the District of Maryland, arguing
that the 2017 Guidance violated the Administrative
Procedure Act, exceeded the FDA’s statutory authority,

App. 29
and violated U.S. Const. art. II, § 3. Am. Acad. of
Pediatrics v. Food & Drug Admin., 379 F. Supp. 3d 461,
490 (D. Md. 2019). The plaintiffs alleged that the FDA
violated the APA by failing to comply with the notice
and comment requirements for rule-making when it
issued the 2017 Guidance. Id. The court held that the
Guidance was “tantamount to an amendment to the
Tobacco Control Act,” such that the FDA was required
to comply with the APA’s notice and comment
requirements. Id. at 497-98. As a result, the court
vacated the 2017 Guidance. Id. at 498. In a subsequent
order dated July 12, 2019, the court established a tenmonth deadline for submitting marketing order
applications for new tobacco products and a one-year
deadline for products for which applications were
already filed to remain on market without enforcement
action. Am. Acad. of Pediatrics v. Food & Drug
Admin., 399 F. Supp. 3d 479 (D. Md. 2019). As a result,
premarket review applications for ENDS products
must be submitted by August 2022. The American
Academy of Pediatrics decision is currently on appeal
before the United States Court of Appeals for the
Fourth Circuit.
Faced with accelerated deadlines for complying with
the TCA, Big Time Vapes, Inc., and United States
Vaping Association, Inc., filed this lawsuit on August
19, 2019, against the FDA, the Secretary of Health and
Human Services, and the Acting Commissioner of the
FDA. The plaintiffs assert that 21 U.S.C. § 387a(b)
violates the United States Constitution by
impermissibly delegating legislative authority to the

App. 30
executive branch.3 See U.S. Const., art. I, § 1 (“All
legislative Powers herein granted shall be vested in a
Congress of the United States, which shall consist of a
Senate and House of Representatives.”) The plaintiffs
seek a declaratory judgment that 21 U.S.C. § 387a(b)
violates the Constitution, such that the deeming rule is
invalid. The plaintiffs also ask the Court to enjoin the
defendants from enforcing the TCA against the
plaintiffs or any other similarly situated businesses.
The plaintiffs have filed a motion for preliminary
injunction, and the defendants have filed a motion to
dismiss pursuant to Fed. R. Civ. P. 12(b)(6).
DISCUSSION
I. DEFENDANTS’ MOTION TO DISMISS
When considering a motion under Rule 12(b)(6), the
“court accepts ‘all well-pleaded facts as true, viewing
them in the light most favorable to the plaintiff.’”
Martin K. Eby Constr. Co. v. Dall. Area Rapid Transit,
369 F.3d 464, 467 (5th Cir. 2004) (quoting Jones v.
Greninger, 188 F.3d 322, 324 (5th Cir. 1999) (per
curiam)). But “the tenet that a court must accept as
true all of the allegations contained in a complaint is
inapplicable to legal conclusions. Threadbare recitals of
the elements of a cause of action, supported by mere

3

Big Time Vapes is a Mississippi corporation that sells and
manufactures vaping products in Picayune, Mississippi. United
States Vaping Association is a trade association “organized in
July and August 2019 to represent small-business vaping
manufacturers (who make e-liquid) and retail vape shops that sell
e-liquid manufactured by other firms and mix and produce their
own in-house e-liquid.” (Compl. 4-5, ECF No. 1.)

App. 31
conclusory statements, do not suffice.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (citing Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007)). To overcome a
Rule 12(b)(6) motion, a plaintiff must plead “enough
facts to state a claim to relief that is plausible on its
face.” Twombly, 550 U.S. at 570. “Factual allegations
must be enough to raise a right to relief above the
speculative level, on the assumption that all the
allegations in the complaint are true (even if doubtful
in fact).” Id. at 555 (citations and footnote omitted).
Ordinarily, in considering a motion to dismiss under
Rule 12(b)(6), the Court “must limit itself to the
contents of the pleadings, including attachments
thereto.” Collins v. Morgan Stanley Dean Witter, 224
F.3d 496, 498 (5th Cir. 2000). An exception to this rule
exists for “matters of public record,” of which the Court
may take judicial notice. Norris v. Hearst Tr., 500 F.3d
454, 461 n.9 (5th Cir. 2007). Additionally, “[d]ocuments
that a defendant attaches to a motion to dismiss are
considered part of the pleadings if they are referred to
in the plaintiff’s complaint and are central to her
claim.” Causey v. Sewell Cadillac-Chevrolet, Inc., 394
F.3d 285, 288 (5th Cir. 2004). “If . . . matters outside
the pleadings are presented to and not excluded by the
court, the motion must be treated as one for summary
judgment under Rule 56.” Fed. R. Civ. P. 12. The Court
has not considered any matters outside of the pleadings
while deciding the defendants’ Motion; therefore, it is
not necessary to treat the defendants’ Motion to
Dismiss as a motion for summary judgment.4
4

The plaintiffs ask the Court to permit them to conduct discovery
prior to ruling on the defendants’ Motion to Dismiss, because the

App. 32
Article I, section 1 of the Constitution provides, “All
legislative powers herein granted shall be vested in a
Congress of the United States . . . .” U.S. Const. art. I,
§ 1. As a result, “Congress generally cannot delegate its
power to another Branch.” Mistretta v. United States,
488 U.S. 361, 372 (1989). Nevertheless, this
nondelegation doctrine does not prevent Congress from
delegating “at least some authority that it could
exercise itself.” Loving v. United States, 517 U.S. 748,
758 (1996). “So long as Congress shall lay down by
legislative act an intelligible principle to which the
person or body authorized to [exercise the delegated
authority] is directed to conform, such legislative action
is not a forbidden delegation of legislative power.”
Mistretta, 488 U.S. at 372 (alterations in original).
“Applying this ‘intelligible principle’ test to
congressional delegations, our jurisprudence has been
driven by a practical understanding that in our
increasingly complex society, replete with ever
changing and more technical problems, Congress
simply cannot do its job absent an ability to delegate
power under broad general directives.” Id. “The true
distinction . . . is between the delegation of power to
make the law, which necessarily involves discretion as
to what it shall be, and conferring authority or
discretion as to its execution, to be exercised under and
in pursuance of the law. The first cannot be done; to
the latter no valid objection can be made.” Loving, 517
plaintiffs contend that the defendants have relied on documents
outside the pleadings in support of their Motion. Because the
Court has not considered any documents outside the pleadings,
discovery is not necessary to determine whether the plaintiffs have
stated plausible claims for relief.

App. 33
U.S. at 758-59. Apart from two 1935 cases, Panama
Refining Co. v. Ryan, 293 U.S. 388 (1935), and A.L.A.
Schechter Poultry Corp. v. United States, 295 U.S. 495
(1935), the Supreme Court has upheld every challenge
to a congressional delegation of power that has been
presented to it. Whitman v. Am. Trucking Ass’ns, 531
U.S. 457, 474 (2001).
Courts considering whether Congress has supplied
an intelligible principle must “constru[e] the challenged
statute to figure out what task it delegates and what
instructions it provides.” Gundy v. United States, 139
S. Ct. 2116, 2123 (2019). The delegation of legislative
authority is “constitutionally sufficient if Congress
clearly delineates the general policy, the public agency
which is to apply it, and the boundaries of this
delegated authority.” Mistretta, 488 U.S. at 372-73
(quoting Am. Power & Light Co. v. SEC, 329 U.S. 90,
105 (1946)). “The standards of the statute are not to be
tested in isolation but must derive meaningful content
from the purpose of the statute and its factual
background and the statutory context in which the
standards appear.” United States v. Womack, 654 F.2d
1034, 1037 (5th Cir. 1981) (citing Am. Power & Light
Corp., 329 U.S. at 105). “[T]he degree of agency
discretion that is acceptable varies according to the
scope of the power congressionally conferred.” Am.
Trucking Ass’ns, 531 U.S. at 475.
The plaintiffs argue that the TCA is
unconstitutional, because it gives the FDA no guidance
for determining whether a tobacco product should be
governed by the TCA. Contrary to the plaintiffs’
assertions, Congress did not give the FDA unlimited

App. 34
discretion but restricted the FDA’s discretion with a
controlling definition of “tobacco product.”5 In addition,
Congress, itself, designated certain tobacco products as
governed by the TCA6 and presented detailed policies
behind its enactment of the TCA. For example,
Congress clearly expressed a desire to protect the
public health and to prevent, to the extent possible,
underaged persons from having access to tobacco
products. These listed policies and covered products
provide additional guidance to the FDA for determining
which additional tobacco products should be governed
by the TCA. This case is analogous to United States v.
Womack, wherein the Fifth Circuit held that Title XI of
the Organized Crime Control Act of 1970 provided the
Secretary of the Treasury with adequate standards for
listing additional explosives covered by the Act where
Congress provided a definition of the term “explosives”
and gave an illustrative list of explosives subject to the
Act. 654 F.2d at 1037. In the opinion of the Court the
TCA does not violate the Constitution, and the
plaintiffs have not stated a plausible claim for relief.

5

Congress defines “tobacco product” as “any product made or
derived from tobacco that is intended for human consumption,
including any component, part, or accessory of a tobacco product
(except for raw materials other than tobacco used in
manufacturing a component, part, or accessory of a tobacco
product).” 21 U.S.C. § 321(rr)(1).
6

Congress specified that the TCA “shall apply to all cigarettes,
cigarette tobacco, roll-your-own tobacco, and smokeless
tobacco . . . .” 21 U.S.C. § 387a(b).

App. 35
II. PLAINTIFFS’ MOTION FOR PRELIMINARY
INJUNCTION
A movant is entitled to a preliminary injunction
only if he establishes:
(1) a substantial likelihood of success on the
merits, (2) a substantial threat of irreparable
injury if the injunction is not issued, (3) that the
threatened injury if the injunction is denied
outweighs any harm that will result if the
injunction is granted, and (4) that the grant of
an injunction will not disserve the public
interest.
Byrum v. Landreth, 566 F.3d 442, 444 (5th Cir. 2009).
The plaintiffs cannot demonstrate a substantial
likelihood of success on the merits because they have
not stated a plausible claim for relief. As a result, it is
not necessary to consider the additional preliminary
injunction elements. The plaintiffs’ Motion for
Preliminary Injunction is denied.
CONCLUSION
Congress provided sufficient guidance when it
delegated authority to the FDA to designate which
products should be governed by the TCA. Thus, the
TCA does not violate the United States Constitution.
The defendants’ Motion to Dismiss is granted, and the
plaintiffs’ Motion for Preliminary Injunction is denied.
IT IS, THEREFORE, ORDERED AND
ADJUDGED that the [24] Motion to Dismiss filed by
the defendants, Food and Drug Administration,
Admiral Brett P. Giroir, M.D. in his official capacity as

App. 36
Acting Commissioner of Food and Drug
Administration, and Alex M. Azar, II, in his official
capacity as Secretary of Health and Human Services is
GRANTED. This lawsuit is hereby DISMISSED
WITH PREJUDICE. The Court will enter a separate
judgment pursuant to Fed. R. Civ. P. 58.
IT IS, FURTHER, ORDERED AND ADJUDGED
that the [15] Motion for Preliminary Injunction filed by
the plaintiffs, Big Time Vapes, Inc., and United States
Vaping Association, Inc., is DENIED.
SO ORDERED AND ADJUDGED this the 16th
day of December, 2019.
s/ Louis Guirola, Jr.
LOUIS GUIROLA, JR.
UNITED STATES DISTRICT JUDGE

App. 37

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
MISSISSIPPI
SOUTHERN DIVISION
CAUSE NO. 1:19cv531-LG-JCG
[Filed: December 16, 2019]
_____________________________________________
BIG TIME VAPES, INC. and
)
UNITED STATES VAPING
)
ASSOCIATION, INC.
)
)
PLAINTIFFS
)
)
v.
)
)
FOOD AND DRUG
)
ADMINISTRATION, et al.
)
)
DEFENDANTS
)
_____________________________________________)
FINAL JUDGMENT
In accordance with the Memorandum Opinion and
Order entered herewith, this Court finds that this
lawsuit should be dismissed pursuant to Fed. R. Civ. P.
12(b)(6).

App. 38
IT IS, THEREFORE, ORDERED AND
ADJUDGED that this lawsuit is hereby DISMISSED
WITH PREJUDICE.
SO ORDERED AND ADJUDGED this the 16th
day of December, 2019.
s/ Louis Guirola, Jr.
LOUIS GUIROLA, JR.
UNITED STATES DISTRICT JUDGE

App. 39

APPENDIX D
United States Court of Appeals
for the Fifth Circuit
No. 19-60921
[Filed: August 25, 2020]
_____________________________________________
BIG TIME VAPES, INCORPORATED;
)
UNITED STATES VAPING ASSOCIATION,
)
INCORPORATED,
)
)
Plaintiffs – Appellants, )
)
versus
)
)
FOOD & DRUG ADMINISTRATION,
)
STEPHEN M. HAHN, COMMISSIONER OF FOOD
)
AND DRUGS; ALEX M. AZAR, II, SECRETARY,
)
U.S. DEPARTMENT OF HEALTH AND HUMAN
)
SERVICES, IN HIS OFFICIAL CAPACITY,
)
)
Defendant – Appellees.
)
_____________________________________________)
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 1:19-CV-531
ON PETITION FOR REHEARING EN BANC
(Opinion June 25, 2020, 963 F.3d 436)

App. 40
Before SMITH, HIGGINSON, and ENGELHARDT, Circuit
Judges.
PER CURIAM:
Treating the petition for rehearing en banc as a
petition for panel rehearing, the petition for panel
rehearing is DENIED. No judge in regular active
service having requested that the court be polled on
rehearing en banc (FEDERAL RULE OF APPELLATE
PROCEDURE 35 and 5TH CIRCUIT RULE 35), the petition
for rehearing en banc is DENIED.
ENTERED FOR THE COURT
___/s/ Jerry E. Smith
United States Circuit Judge

